                  DEPARTMENT OF HEALTH AND HUMAN SERVICES


              OFFICE OF INSPECTOR GENERAL
                                  WASHINGTON, DC 20201




                                   DEC 2 8 2012
TO: 	         Kathy Greenlee
              Administrator
              Administration for Community Living

                             /S/
FROM:         Stuart Wrigkt
              Deputy Inspector General
                for Evaluation and Inspections


SUBJECT: 	 Memorandum Report: Community Living Assistance Services and
           Supports Program: 2012 Report to Congress, OEI-04-11-00451


Effective January 1, 2011, Title VIII of the Patient Protection and Affordable Care Act
(hereinafter referred to as the CLASS Act) established the Community Living Assistance
Services and Supports (CLASS) program. The CLASS Act requires the Office of
Inspector General (OIG) to submit an annual report to the Secretary and Congress on the
overall progress of the CLASS program and the existence of waste, fraud, and abuse in
the program. This memorandum report fulfills OIG' s 2012 reporting requirement.

To fulfill this requirement in 2011, OIG issued the report Community Living Assistance
Services and Supports Program: 2011 Report to Congress (OEI-04-11-00450).

For the relevant text of the CLASS Act, see the Appendix.

SUMMARY

According to the CLASS Act, OIG must submit an annual report to the Secretary of
Health and Human Services (Secretary) and Congress on the overall progress of the
CLASS program and the existence of waste, fraud, and abuse. Each report must include
findings in four areas: (1) providing cash benefits; (2) determining eligibility;
(3) providing quality assurance and protecting against waste, fraud, and abuse; and
(4) recouping unpaid and accrued benefits.

The Department of Health and Human Services (HHS) could not identify a benefit plan
that was both actuarially sound and consistent with additional requirements of the
CLASS Act. As a result, CLASS program activities were suspended in October 2011.
Because program activities remained suspended in 2012, OIG has no findings specific to
the areas specified in its reporting requirement.
Page 2 - Kathy Greenlee


BACKGROUND

Effective January 1, 2011, the CLASS program was established as a federally
administered, voluntary insurance program to help working adults cover some costs of
long-term-care services and supports. The CLASS Act required the benefit plan to be
actuarially sound for a 75-year period and to meet several other requirements regarding
premium amounts, benefit amounts, and benefit eligibility. 1

On October 14, 2011, the Secretary informed Congress that HHS had not identified a
CLASS program benefit plan that was both actuarially sound for the next 75 years and
consistent with the requirements of the CLASS Act. Following this announcement, HHS
suspended program implementation activities.

RESULTS

Prior to program suspension, the CLASS Office within the Administration on Aging was
responsible for developing, overseeing, and implementing the CLASS program.
Following program suspension, the CLASS Office focused its efforts on organizing and
storing key office documents and helping staff transition to other jobs. The CLASS
Office was officially abolished on April 18, 2012, with the publication of the Federal
Register notice that incorporated the Administration on Aging into the newly created
Administration for Community Living (ACL). 2 No CLASS program activities took place
after this time.

Because program activities remained suspended in 2012, OIG has no findings specific to
the areas specified in its reporting requirement. ACL has no plans to resume program
activity.

CONCLUSION

We consider this memorandum report to meet OIG’s annual CLASS Act reporting
requirement. OIG will determine the most appropriate way to meet this requirement in
future years on the basis of the CLASS program’s status.

This report is being issued directly in final form because it contains no
recommendations. If you have comments or questions about this report, please provide
them within 60 days. Please refer to report number OEI-04-11-00451 in all
correspondence.




1
    Public Health Services Act § 3203(a) and (b), 42 U.S.C. § 300ll-2(a) and (b).
2
    77 Fed. Reg. 23250 (Apr. 18, 2012).
Page 3 - Kathy Greenlee


APPENDIX

Public Health Services Act Sec. 3209, 42 U.S.C. § 300ll-8

SEC. 3209. INSPECTOR GENERAL’S REPORT.

The Inspector General of the Department of Health and Human Services shall submit an
annual report to the Secretary and Congress relating to the overall progress of the CLASS
[Community Living Assistance Services and Supports] program and of the existence of
waste, fraud, and abuse in the CLASS program. Each such report shall include findings
in the following areas:

(1) The eligibility determination process.
(2) The provision of cash benefits.
(3) Quality assurance and protection against waste, fraud, and abuse.
(4) Recouping of unpaid and accrued benefits.
